BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for a Writ of
Certiorari and 1 original and 10 copies of the Motion to
File Sealed Supplemental Appendix and Sealed
Supplemental Appendix in Eric A. Longmire v.
Warshaw Burstein Cohen Schlesinger & Kuh, LLP,
were sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day Service and
e-mail to the following parties listed below, this 10th
day of December, 2019:
David Wilek
Harris J. Zakarin
Rivkin Radler LLP
926 RXR Plaza
Uniondale, NY 11556-0926
516-357-3000
david.wilck@rivkin.com
Avi Lew
Warshaw Burstein Cohen Schlesinger & Kuh, LLP
575 Lexington Avenue
New York, NY 10022
212-984-7700
alew@wbny.com
Counsel for Respondent
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-204 7
(o) 407-388-1900
robertsirianni@brownstonelaw.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
I Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 10, 2019.

Julie A. Kershner
Becker Gallagher Le al Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: ' ~

d(iv f(J,

Notary Public

~ t UJ} Q:21 q

~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

I

f

